IN THE SUPREME COURT OF THE UNITED STATES
No. 21-198
ANTHONY W. KNIGHTS,
Petitioner,
v.
UNITED STATES,
Respondent.
Certificate of Service
I, Deborah N. Archer, a member of the bar of this Court, hereby certify that,
on this 30th day of August, 2021, all parties required to be served have been served
the Brief of Amici Curiae Center on Race, Inequality, and the Law; Charles
Hamilton Houston Institute for Race and Justice; Fred T. Korematsu Center for
Law and Equality; Center on Race, Law, and Justice; and Nathaniel R. Jones
Center for Race, Gender, and Social Justice in Support of Petitioner on counsel for
each party to the above proceeding as listed below. Service was made electronically
per the Court’s order of April 15, 2020, regarding rule changes due to the COVID-19
pandemic.
Counsel for Petitioner
ALIZA HOCHMAN BLOOM
NEW ENGLAND SCHOOL OF LAW
154 Stuart Street
Boston, MA 02116
(781) 710-9741
aliza.hochman@aya.yale.edu
Counsel for Respondent
BRIAN H. FLETCHER
Acting Solicitor General,
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

I declare under penalty of perjury that the foregoing is true and correct.

/s/Deborah N. Archer
Deborah N. Archer
Center on Race, Inequality, and the Law
at New York University School of Law
139 MacDougal Street
New York, NY 10012
(212) 998-6882
deborah.archer@nyu.edu

